                                                                             Report No. DODIG-2014-035




              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              JA N UA RY 3 1 , 2 0 1 4




                    Independent Auditor’s Report on the
                    FY 2013 DoD Detailed Accounting
                    Report of the Funds Obligated for
                    National Drug Control Program
                    Activities




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                              the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




For more information about whistleblower protection, please see the inside back cover.
                                   INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                  4800 MARK CENTER DRIVE
                               ALEXANDRIA, VIRGINIA 22350-1500


                                                                                    January 31, 2014

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
			             CHIEF FINANCIAL OFFICER, DOD
		             DEPUTY ASSISTANT SECRETARY OF DEFENSE
			             (COUNTERNARCOTICS AND GLOBAL THREATS)
		             ASSISTANT SECRETARY OF THE AIR FORCE
			             (FINANCIAL MANAGEMENT AND COMPTROLLER)
		             NAVAL INSPECTOR GENERAL
		             AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Independent Auditor’s Report on the FY 2013 DoD Detailed Accounting Report
	        of the Funds Obligated for National Drug Control Program Activities
	        (Report No. DODIG-2014-035)

Public Law 105-277, Title VII, “Office of National Drug Control Policy Reauthorization Act
of 1998” (the Act), October 21, 1998, requires that DoD annually submit a detailed report
(the Report) to the Director, Office of National Drug Control Policy (ONDCP), accounting for all
funds DoD expended for National Drug Control Program activities during the previous fiscal
year. The Act requires that the DoD Inspector General authenticate the Report before its
submission to the ONDCP Director (section 1704(d), Title 21, United States Code).

The “ONDCP Circular: Accounting of Drug Control Funding and Performance Summary,”
January 18, 2013, (the Circular) provides the policies and procedures DoD must use to prepare
the Report and authenticate the DoD funds expended on National Drug Control Program
activities. The Circular specifies that the Report must contain a table of prior-year drug control
obligations, listed by functional area, and include assertions relating to the obligation data
presented in the table.

The Deputy Assistant Secretary of Defense for Counternarcotics and Global Threats (DASD
[CN & GT]) was responsible for the detailed accounting of funds obligated and expended by DoD for
the National Drug Control Program for FY 2013.

We performed this review-level attestation in accordance with attestation standards established
by the American Institute of Certified Public Accountants and in compliance with generally
accepted government auditing standards. Those standards require that we plan and perform
the attestation to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our attestation objective. We believe the evidence obtained
provides a reasonable basis for our findings and conclusions based on our attestation objective.
A review-level attestation is substantially less in scope than an examination done to express an
opinion on the subject matter. Accordingly, we do not express such an opinion.




                                                                   DODIG-2014-035 (Project No. D2014-D000FT-0062) │ 1
           We reviewed five DoD reprogramming actions that allocated $1.31 billion among the Military
           Departments, National Guard, and Defense agencies. We reviewed the year‑end obligation report
           and determined that DASD (CN & GT) allocated the funds to appropriations and project codes
           intended for the DoD Counterdrug Program.

           In a letter dated January 23, 2014, DASD (CN & GT) provided us the Report. We reviewed it
           to determine its compliance with the Circular. The detailed accounting indicated that during
           FY 2013, DoD obligated $1.21 billion to the Counterdrug Program functional areas.
           DASD (CN & GT) compiled the Report from data submitted by the Military Departments and
           other DoD Components. Specific to the Army, DASD (CN  &  GT) reported $390.99  million in
           obligations. However, DASD (CN & GT) and Army did not provide evidence supporting
           $88.66 million (or 23 percent) of Army Counterdrug Program obligations. The Army’s detailed
           accounting for these transactions identified posting dates in FY 2012 and FY 2014. When we
           requested clarification, the Army did not provide payment records to support its explanation
           that these transactions occurred in FY 2013.

           DASD (CN & GT) initially reprogrammed the funds from the Central Transfer Account to the
           DoD Components using project codes. The DoD Components provided year‑end obligation data
           to DASD (CN & GT) through the DASD CN database, which compiled the data into one obligation
           report. In order to present the obligations by functional area as required by the Circular,
           DASD (CN & GT) applied percentages to each project code in the consolidated report to
           compute the amounts presented in the table of obligations, instead of obtaining the information
           directly from the accounting systems.

           Based on our review, except for the Army’s lack of support for $88.66 million of Counterdrug
           Program obligations and DASD (CN & GT)’s use of percentages to calculate the obligations
           presented by functional area, nothing came to our attention during the review that caused
           us to believe the detailed accounting of funds obligated by DoD on the National Drug Control
           Program for FY 2013 is not presented fairly, in all material respects, in conformity with
           the Circular.




           	                                          Amy J. Frontz, CPA
           	                                          Principal Assistant Inspector General
           	                                           for Auditing
           Attachment:
           As stated




2 │ DODIG-2014-035 (Project No. D2014-D000FT-0062)
Attachment




4 │ DODIG-2014-035
    Attachment




DODIG-2014-035 │ 5
Attachment




6 │ DODIG-2014-035
    Attachment




DODIG-2014-035 │ 7
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                            DoD Hotline
                           1.800.424.9098

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                        Reports Mailing List
                  dodig_report-request@listserve.com

                               Twitter
                         twitter.com/DoD_IG
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
